CREDIT CARD AGREEMENT AND
DISCLOSURE STATEMENT
P.O. Box 2573
Fort Wayne, IN 46801-2573

THIS IS YOUR CREDIT CARD AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-IN-LENDING
DISCLOSURE STATEMENTS, MASTERCARD PLATINUM AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS
REGARDING THE USE OF YOUR MASTERCARD PLATINUM CREDIT CARDS, AND/OR ANY OTHER ACCOUNT
ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF
ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

_______%

Mastercard Platinum:
This APR will vary with the market based on the Prime Rate.

_______%

Annual Percentage Rate
(APR) For Balance Transfers

Mastercard Platinum:
This APR will vary with the market based on the Prime Rate.

Annual Percentage Rate
(APR) For Cash Advances

Mastercard Platinum:
This APR will vary with the market based on the Prime Rate.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a Credit
Card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

_______%

Fees
Transaction Fees




Cash Advance
Overdraft Protection Transfer
Foreign Transaction

3.00% of each advance.
3.50% of each transfer.
1.00% of each foreign currency transaction in U.S. Dollars.
1.00% of each foreign U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees



Late Payment
Returned Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.

DEFINITIONS. In this Agreement, the references to "We," "Us," "Our" and "Credit Union" mean THREE RIVERS FEDERAL CREDIT UNION. The words "You" and "Your" mean
each person who accepts this Agreement or uses the Mastercard Platinum Credit Card. The words "Card" and "Credit Card" mean any Mastercard Platinum Credit Card issued to
You by Us and any duplicates or renewals. The word "Account" means the Mastercard Platinum Credit Card Account established for You under this Agreement. "Convenience
Checks" mean the special Account access devices that We may provide for Your use from time to time. If this is a joint Account, read singular pronouns in the plural.
PROMISE TO PAY. You understand that the following terms and conditions constitute Our Agreement with You. Your Account may be accessible through a variety of means
which could include advance request forms, vouchers, checks, charge slips, convenience checks, Credit Cards and the like. Regardless of the access means, You promise to
pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for use of Your Account,
including Finance Charges and other fees or charges described herein.

Type of Credit Card
MASTERCARD PLATINUM

Index

Variable Rate
Margin

________%

Copyright Oak Tree Business Systems, Inc., 2011 - 2018. All Rights Reserved.

________%
Page 1 of 3

Monthly Periodic
Rate

Annual
Percentage Rate

________%

________%
OTBS 016CC FRB_WEB THRE (6/18)
Rev. (6/18)

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial institutions.
You agree not to use Your Card for illegal transactions including, but not limited to,
advances made for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.
SECURITY. Collateral (other than household goods or any dwelling) given as security
under this Agreement or for any other loan You may have with Us will secure all
amounts You owe Us now and in the future if that status is reflected in the "Truth-inLending Disclosure" in any particular Agreement evidencing such debt.
CONSENSUAL LIEN ON SHARES. You grant and consent to a lien on Your
shares with Us (except for IRA and Keogh accounts) and any dividends due
or to become due to You from Us to the extent You owe on any unpaid Credit
Card balance.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for each
Credit Card for which You are approved. Unless You are in default, any Credit Limits
established for You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We authorize
the advances which caused You to exceed Your Credit Limit. Even if Your unpaid
balance is less than Your Credit Limit, You will have no credit available during any
time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the
repayment of any amounts owed. If any Account access device, such as a Personal
Identification Number (PIN) is requested and approved, You understand that any such
Account access device(s) will be mailed only to the primary Borrower at the address
that We have on file for You. We may refuse to follow any instructions which run
counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need only
pay the Minimum Monthly Payments, You understand that You have the right to repay
at any time without penalty. You also understand that You will only be charged periodic
Finance Charges to the date You repay Your entire balance. You may make larger
payments without penalty. Any partial payment or prepayment will not delay Your next
scheduled payment. All payments to Us must be in lawful money of the United States.
As permitted by law, We may apply payments in an order of Our choosing.

them by the number of days in the billing cycle. The Finance Charge for a billing cycle
is computed by multiplying the average daily balance subject to a Finance Charge by
the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the entire
balance owed each month within 25 days of Your statement closing date. Otherwise,
the new balance of purchases, and subsequent purchases from the date they are
posted to Your Account, will be subject to a Finance Charge. Cash advances and
balance transfers are always subject to a Finance Charge from the later of the date
they are posted to Your Account or from the first day of the billing cycle in which the
cash advance is posted to Your Account.
VARIABLE RATE. Advances are subject to a Variable Rate which is based on the
highest Prime Rate as published in the Money Rates section of The Wall Street
Journal in effect on the last day of each billing cycle ("Index") plus Our Margin. The
Index plus the Margin equals the Interest Rate. Changes in the Index will cause
changes in the Interest Rate on the 1st day of the billing cycle that immediately follows
a change in the Index. Increases or decreases in the Interest Rate will cause like
increases or decreases in the Finance Charge and will affect the number of Your
regularly scheduled payments. Changes in the rate will apply to Your remaining
principal balance and will not be greater than 18.00%.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing all
transactions on Your Account including amounts paid and borrowed since Your last
statement. We will provide You with a statement each billing cycle in which there is a debit
or credit balance or when a Finance Charge is imposed. We need not send You a statement
if We feel Your Account is uncollectible or if We have started collection proceedings against
You because You defaulted. Each statement is deemed to be a correct statement of
account unless You establish a billing error pursuant to the Federal Truth-In-Lending Act.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under no
obligation to honor Your Convenience Checks if: (1) by paying a Convenience Check,
You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks have been
reported lost or stolen; (3) Your Account has been cancelled or has expired. If a
postdated Convenience Check is paid and, as a result, any other Convenience Check is
returned unpaid, We are not responsible for any resulting loss or liability.

Any unpaid portion of the Finance Charge will be paid by subsequent payments and
will not be added to Your principal balance. You understand that any delay in the
repayment of Your unpaid balance will increase Your periodic Finance Charges and
any acceleration in the repayment of Your unpaid balance will decrease Your periodic
Finance Charges.

DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us; or
(b) You should die, become involved in any insolvency, receivership or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You owe
money on Your Account; or (d) A judgment or tax lien should be filed against You or any
attachment or garnishment should be issued against any of Your property or rights,
specifically including anyone starting an action or proceeding to seize any of Your funds
on deposit with Us; and/or (e) We should, in good faith, believe Your ability to repay Your
indebtedness hereunder is or soon will be impaired, time being of the very essence.

Minimum Payments will be an amount equal to 1.50% of Your new unpaid balance at
the end of each billing cycle, subject to the lesser of $15.00 or Your balance, plus any
portion of the Minimum Payments shown on prior statement(s) which remains unpaid,
plus any amount that exceeds Your approved Credit Limit.

Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of Your Account immediately due and payable, without
prior notice or demand.

You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.

COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection and
reasonable attorneys' fees incurred in the course of collecting any amounts owed
under this Agreement or in the recovery of any collateral.

LATE CHARGE. If Your payment is more than 10 days late, You will be charged the
lesser of: (a) the amount of the minimum payment due; or (b) $25.00.
OVERDRAFT PROTECTION. We may transfer funds in multiples of $100.00 (or in
such increments as We may from time to time determine) to Your share draft account
by an advance on Your Mastercard Platinum Credit Card, subject to this provision, to
clear any Overdraft on Your share draft account. Whether or not such transfers occur
will be controlled by this Agreement. In any event, You hold Us harmless for any and
all liability which might otherwise arise if the transfer does not occur. Overdraft
Protection automatically ceases if this Agreement is ever cancelled or terminated or
Your Account is in default.

ENFORCEMENT. We do not lose Our rights under this or any related agreement if We
delay enforcing them. We can accept late payments, partial payments or any other
payments, even if they are marked "paid in full" without losing any of Our rights under
this Agreement. If any provision of this or any related agreement is determined to be
unenforceable or invalid, all other provisions remain in full force and effect.

OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) lesser of $25.00 for any check (or other negotiable
instrument used for payment) which is returned unpaid, or the required minimum
payment amount for the returned payment; (b) a cash advance fee FINANCE
CHARGE equal to 3.00% of each advance; and (c) an overdraft protection fee
FINANCE CHARGE equal to 3.50% of each transfer.

CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.

FINANCE CHARGES. In the case of any transactions under Your Account, the
balances subject to the periodic Finance Charge are the average daily transactions
balances outstanding during the month (new and previous). To get the average daily
balance, We take the beginning balance of Your Account each day, add any new
purchases, cash advances, insurance premiums, debit adjustments or other charges
and subtract any payments, credits and unpaid Finance Charges. This gives Us the
daily balance. Then, We add up all the daily balances for the billing cycle and divide
Copyright Oak Tree Business Systems, Inc., 2011 - 2018. All Rights Reserved.

NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move or
otherwise have a change of address.

CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to Your outstanding balance. If You elect
to do so, You will be given the necessary disclosures and documents separately.
INTEGRATED DOCUMENTS. Any separate sheet of paper, which is delivered
together with this Agreement or separately at a later date becomes an integrated part
of this Agreement and Disclosure.

Page 2 of 3

OTBS 016CC FRB_WEB THRE (6/18)
Rev. (6/18)

CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device; or
by authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other financial
information related to You, at Our request. You also agree that We may, from time to
time, as We deem necessary, make inquiries pertaining to Your employment, credit
standing and financial responsibility in accordance with applicable laws and
regulations. You further agree that We may give information about the status and
payment history of Your Account to consumer credit reporting agencies, a prospective
employer or insurer, or a state or federal licensing agency having any apparent
legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account or any particular Credit Card
of Your Account, at any time, whether or not You are in default. You will, in any case, remain
liable to pay any unpaid balances according to the terms of Your Account.

What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown in
this Agreement. In Your letter, give us the following information:
•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact Us:
• Within 60 days after the error appeared on Your statement.
• At least 3 business days before an automated payment is scheduled, if You want
to stop payment on the amount You think is wrong.
You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.

GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Indiana, except to the extent that such laws are inconsistent with controlling
federal law.

What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:

OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon Your
request, a Personal Identification Number (PIN) for use with participating Automated
Teller Machines (ATMs). This PIN is confidential and should not be disclosed to
anyone. You may use Your PIN to access Your Account and all sums advanced will
be added to Your Account balance. In the event a use of Your PIN constitutes an
Electronic Fund Transfer, the terms and conditions of Your Electronic Fund Transfer
Agreement may also affect Your rights.

1) Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
2) Within 90 days of receiving Your letter, We must either correct the error or explain
to You why We believe the bill is correct.
While We investigate whether or not there has been an error:
•
•

We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue to
charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for the
remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement is
the contract which solely applies to all transactions involving the Card.

•

UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use. Cardholders must call (844) 344-3874 or
write to Us at the address shown in this Agreement. In any case, Your liability will
not exceed $50.00.

After We finish Our investigation, one of two things will happen:

REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions and others to accept the Cards
or Convenience Checks, or electronic terminals to honor the Cards or complete a Card
withdrawal, or for their retention of the Cards or Convenience Checks.
FOREIGN TRANSACTIONS. For transactions initiated in foreign currencies, the
exchange rate between the transaction currency and the billing currency (U.S. Dollars)
will be: (a) a rate selected by Mastercard from the range of rates available in wholesale
currency markets for the applicable central processing date, which rate may vary from
the rate Mastercard itself receives; or (b) the government- mandated rate in effect for
the applicable central processing date. For transactions that are initiated in a foreign
currency, You will be charged 1.00% of the final settlement amount. For transactions
occurring in foreign countries and initiated in U.S. Dollars, You will be charged 1.00%
of the final settlement amount.
TRANSACTION SLIPS. Your monthly statement will identify that merchant, electronic
terminal or financial institution at which transactions were made, but sales, cash
advances, credit or other slips cannot be returned with the statement.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, cardholders must immediately call Us at (844) 344-3874 or
write to Us at the address shown in this Agreement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your share
account after 6 months.

•

•
•

If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You as
delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom we reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1) The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on an
advertisement We mailed to You, or if We own the company that sold You the
goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.

Copyright Oak Tree Business Systems, Inc., 2011 - 2018. All Rights Reserved.

While We investigate, the same rules apply to the disputed amount as discussed above.
After We finish Our investigation, We will tell You Our decision. At that point, if We think
You owe an amount and You do not pay, We may report You as delinquent.

Page 3 of 3

OTBS 016CC FRB_WEB THRE (6/18)
Rev. (6/18)

P.O. Box 2573
Fort Wayne, IN 46801-2573

PRICING INFORMATION ADDENDUM –
CREDIT CARD AGREEMENT
AND DISCLOSURE STATEMENT
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR MASTERCARD PLATINUM
CREDIT CARDS. PLEASE BE SURE TO READ THIS ADDENDUM CAREFULLY AND NOTIFY US AT ONCE IF ANY
PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

12.70% - 18.00%

Mastercard Platinum:
based on Your creditworthiness at the
time You open Your Account.
This APR will vary with the market based on the Prime Rate.

Annual Percentage Rate
(APR) For Balance Transfers

Mastercard Platinum: 12.70% - 18.00% based on Your creditworthiness at the time You
open Your Account.
This APR will vary with the market based on the Prime Rate.

Annual Percentage Rate
(APR) For Cash Advances

Mastercard Platinum: 12.70% - 18.00% based on Your creditworthiness at the time You
open Your Account.
This APR will vary with the market based on the Prime Rate.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

Fees
Transaction Fees




Cash Advance
Overdraft Protection Transfer
Foreign Transaction

3.00% of each advance.
3.50% of each transfer.
1.00% of each foreign currency transaction in U.S. Dollars.
1.00% of each foreign U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees



Late Payment
Returned Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).” See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.

FINANCE CHARGES. In the case of any transactions under Your Account, the balances subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (new and previous). To get the average daily balance, We take the beginning balance of Your Account each day, add any new purchases, cash
advances, insurance premiums, debit adjustments or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance. Then,
We add up all the daily balances for the billing cycle and divide them by the number of days in the billing cycle. The Finance Charge for a billing cycle is computed by multiplying
the average daily balance subject to a Finance Charge by the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within 25 days of Your statement closing date. Otherwise, the
new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Cash advances and balance
transfers are always subject to a Finance Charge from the later of the date they are posted to Your Account or from the first day of the billing cycle in which the cash advance
is posted to Your Account.
Your Mastercard Platinum is subject to a current variable Monthly Periodic Rate of 1.0583% - 1.5000% (corresponding to an ANNUAL PERCENTAGE RATE of 12.70% 18.00%), depending on Your creditworthiness.
VARIABLE RATE. Advances are subject to a Variable Rate which is based on the highest Prime Rate as published in the Money Rates section of The Wall Street Journal in
effect on the last day of each billing cycle ("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will cause changes in the Interest
Rate on the 1st day of the billing cycle that immediately follows a change in the Index. Increases or decreases in the Interest Rate will cause like increases or decreases in the
Finance Charge and will affect the number of Your regularly scheduled payments. Changes in the rate will apply to Your remaining principal balance and will not be greater
than 18.00%.
Your Margin will be determined by Your creditworthiness, and for Mastercard Platinum will be 7.70% - 13.70%.
Copyright Oak Tree Business Systems, Inc., 2011-2018. All Rights Reserved.

Page 1 of 1

OTBS 016ACC FRB_WEB THRE (6/18)
Rev. (6/18)

